                     OVERSIGHT OF
        DEFENSE FINANCE AND ACCOUNTING SERVICE
           CORPORATE DATABASE DEVELOPMENT


Report No. D-2001-030               December 28, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8923.

  Suggestions for Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                         Communications, and Intelligence)
DCD                   Defense Finance and Accounting Service Corporate Database
DCII                  Defense Finance and Accounting Service Corporate Information
                         Infrastructure
DFAS                  Defense Finance and Accounting Service
GAFS-R                General Accounting and Finance System - Redesign
ITOIPT                Information Technology Overarching Integrated Product Team
USD(Comptroller)      Under Secretary of Defense (Comptroller/Chief Financial
                         Officer)
                       Office of the Inspector General, DoD
Report No. D-2001-030                                                 December 28, 2000
 (Project No. D2000FG-0051)

           Oversight of Defense Finance and Accounting Service
                     Corporate Database Development

                                Executive Summary

Introduction. This audit was conducted in support of financial statement audits
required by the Chief Financial Officers Act of 1990, as amended by the Federal
Financial Management Act of 1994 and the Federal Financial Management
Improvement Act of 1996. The Defense Finance and Accounting Service (DFAS) has
initiated a strategy to bring finance and accounting systems into compliance with the
laws and financial management requirements in DoD. The DFAS Corporate
Information Infrastructure is designed to achieve standardization in financial reporting.
The DFAS Corporate Database is a central database that will allow accounting and
finance information to be available simultaneously to many users and applications. The
database should eliminate storage of multiple instances of data as well as inefficiencies
and reconciliation processes that can result when data are passed back and forth
between applications. The DFAS Corporate Database should incrementally integrate
DFAS system initiatives while minimizing change to legacy applications. The DFAS
Corporate Database is required to attain the full benefits associated with initiatives such
as the Defense Procurement Payment System, Defense Standard Disbursing System,
Defense Cash Accountability System, and Defense Departmental Reporting System.
These benefits are a standard system for the business areas and a single database to
store information.

Objectives. The overall objective of the audit was to review development of the DFAS
Corporate Database and its impact on entitlement, disbursing, and accounting functions.
This report is the first in a series related to the DFAS Corporate Database.
Specifically, this report discusses DoD oversight of DFAS development of the DFAS
Corporate Information Infrastructure, DFAS Corporate Database, and associated
applications. The review of the management control program as it relates to the overall
objective will be discussed in a subsequent report.

Results. There was high risk that DoD would not be able to achieve its goal of a
single, integrated system, because management was focused on individual systems and
system ownership is fragmented among many DoD Components. A more integrated
management approach was needed. For details of the audit results, see the Finding
section of the report.
Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) complete and publish
guidance on portfolio management; enforce compliance with the technical infrastructure
model and DFAS Corporate Information Infrastructure for finance, accounting, and
feeder systems; and perform assessments of compliance with the Defense Finance and
Accounting Service Corporate Information Infrastructure for reviews of DoD finance,
accounting and feeder systems. We also recommend that the Under Secretary of
Defense (Comptroller/Chief Financial Officer) complete guidance to implement the
1999 Financial Management Improvement Plan; establish a process to identify systems
that do not meet cost review thresholds; and enforce consolidation, standardization, and
integration of DoD finance and accounting requirements. We further recommend that
the Director, Defense Finance and Accounting Service, justify the reasons why systems
under development were not designed or modernized to comply with the Defense
Finance and Accounting Service Corporate Information Infrastructure.

Management Comments. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) agreed to issue, in coordination with the Office of
the Under Secretary of Defense (Acquisition, Technology, and Logistics), guidance for
the review of finance, accounting and feeder systems. Additionally, the Assistant
Secretary agreed to conduct, in coordination with the Under Secretary of Defense
(Comptroller/Chief Financial Officer), systems reviews using the technical
infrastructure model defined in the Financial Management Improvement Plan and the
DFAS Corporate Information Infrastructure as criteria. The Under Secretary of
Defense (Comptroller/Chief Financial Officer) stated that the Financial Management
Improvement Plan requires DoD to integrate implementation of financial and feeder
systems, and includes critical finance, accounting, and feeder systems, regardless of
their cost-review threshold. Additionally, the Under Secretary of Defense
(Comptroller/Chief Financial Officer) agreed to reference the appropriate DoD
Directives when the Memorandums of Agreement are established. Finally, the Under
Secretary explained that crosswalks will be used to translate nonstandard system data to
be compliant with the DFAS Corporate Information Infrastructure until modernization
and reengineering efforts are complete. A complete discussion of the management
comments is in the Finding section of the report, and the entire text of management
comments, can be found in the Management Comments section of the report.

Audit Response. The comments from the Assistant Secretary were responsive. The
Assistant Secretary agreed to complete and publish guidance on portfolio management,
and conduct systems reviews for compliance with the technical infrastructure model and
the DFAS Corporate Information Infrastructure. Comments from the Under Secretary
were partially responsive. We remain concerned that there will be insufficient
emphasis on implementing an integrated management approach as quickly as possible.
We look forward to helping the Department adapt the Financial and Feeder System
Compliance Process and acquisition review process toward that end, but action is
needed now. We request that the Under Secretary provide additional comments on how
he plans to accelerate the implementation of this approach during the remainder of
FY 2001. We request that the Under Secretary provide comments on this report by
February 28, 2001.




                                           ii
Table of Contents

Executive Summary                                                             i

Introduction
     Background                                                               1
     Objectives                                                               2

Finding
     Integrating DoD Financial Management Systems                             3

Appendixes
     A. Audit Process
          Scope                                                              16
          Methodology                                                        18
          Prior Coverage                                                     18
     B. Financial Systems Requirements                                       19
     C. Technical Infrastructure Model                                       22
     D. Description of Systems                                               24
     E. Report Distribution                                                  30


Management Comments
     Office of the Under Secretary of Defense (Comptroller/Chief Financial
         Officer)                                                            32
     Office of the Assistant Secretary of Defense (Command, Control
         Communications, and Intelligence)                                   35
    This audit was conducted in support of financial statement audits required by the
    Chief Financial Officers Act of 1990, as amended by the Federal Financial
    Management Act of 1994, and the Federal Financial Management Improvement
    Act of 1996. This report is one in a series related to the Defense Finance and
    Accounting Service (DFAS) Corporate Database (DCD), and discusses DoD
    oversight management of the DCD, DFAS Corporate Information Infrastructure
    (DCII), and the associated applications. Subsequent reports will discuss DCII
    and DCD life-cycle management, implementation of data standardization, and
    information assurance.

Background
    Congress and the General Accounting Office have cited concerns with financial
    management within DoD. In addition, DoD must comply with several statutory
    requirements, including Office of Management and Budget Circular No. A-127,
    “Financial Management Systems,” July 23, 1993, which requires each DoD
    agency establish a single, integrated financial management system.

    Congressional Concerns with DoD Financial Management. The House
    Appropriations Committee reported in the DoD Appropriations Bill for FY 2000
    that the Committee was disappointed with the current level of DoD oversight of
    its information technology systems. According to the report, DoD information
    technology projects have tended to overrun budgets, slip schedules, evade data
    standardization and interoperability requirements, and shortchange user needs.
    In addition, the Appropriations Conference Committee Report 106-754,
    “Making Appropriations for the Department of Defense for the Fiscal Year
    Ending September 30, 2001, and For Other Purposes,” July 17, 2000,
    terminated the Services’ funding for the Defense Joint Accounting System as a
    result of ineffective oversight. DFAS can continue the program with its own
    funds subject to the Congressional scrutiny.

    General Accounting Office Concerns with DoD Financial Management. The
    General Accounting Office expressed concerns about the state of DoD financial
    management systems. In the General Accounting Office Testimony 99-93,
    “Defense Information Management: Continuing Implementation Challenges
    Highlight the Need for Improvement,” February 25, 1999, the General
    Accounting Office stated that DoD faces a number of serious management
    challenges, including a lack of effective management and oversight controls,
    technical and data standardization, and measuring performance. Further, the
    General Accounting Office stated that DoD had taken only preliminary steps to
    resolve financial management concerns. Since inception of the Chief Financial
    Officers Act, DoD has been unable to receive a favorable opinion on all but one
    of its major financial statements, due in part to the inability to audit nonstandard
    data because of noncompliant financial and feeder systems.

    Office of Management and Budget Financial Management System
    Guidance. Office of Management and Budget Circular No. A-127 prescribes
    policies and standards for Federal Agencies to follow in developing and
    operating financial management systems. Each agency must establish and
    maintain a single, integrated financial management system that complies with
    accounting principles, internal control standards, and applicable Office of


                                         1
     Management and Budget and U.S. Treasury requirements. The circular defines
     a single, integrated financial management system as a unified set of financial,
     mixed and feeder systems that are planned for and managed together, operated
     in an integrated fashion, and linked together electronically to provide
     agency-wide financial system support. For a complete summary of Federal and
     DoD financial system requirements, see Appendix B.

     Implementation of DoD Financial Improvements. Responsibility for
     implementing financial improvements is shared among the Under Secretary of
     Defense (Comptroller/Chief Financial Officer) (USD[Comptroller]), DFAS, and
     the Assistant Secretary of Defense (Command, Control, Communications, and
     Intelligence) (ASD[C3I]). The USD(Comptroller) and DFAS are responsible for
     developing and maintaining finance and accounting systems, and the ASD(C3I)
     is responsible for the acquisition of automated information systems.

             USD(Comptroller/Chief Financial Officer) Responsibilities. DoD
     Directive 5118.3, “Under Secretary of Defense (Comptroller) Chief Financial
     Officer, Department of Defense,” January 6, 1997, requires the
     USD(Comptroller) to develop and maintain an integrated DoD accounting and
     financial management system.

            DFAS Responsibilities. DoD Directive 5118.5, “Defense Finance and
     Accounting Service,” November 26, 1990, established DFAS as a Defense
     Agency under the USD(Comptroller). DFAS is required to direct consolidation,
     standardization, and integration of DoD finance and accounting requirements,
     functions, procedures, operations, and systems. According to the directive,
     DoD Components are required to comply with DFAS direction and maintain
     control of accounting and finance resources (feeder systems).

            ASD(C3I) Responsibilities. DoD Directive 5137.1, “Assistant Secretary
     of Defense for Command, Control, Communications, and Intelligence,”
     February 12, 1992, requires the ASD(C3I) establish and implement information
     management policy, processes, programs, and standards to govern the
     development, acquisition, and operation of DoD automated information systems.

Objectives
     The overall objective of the audit was to review development of the DFAS
     Corporate Database and its impact on entitlement, disbursing, and accounting
     functions. The specific objective of this review was to evaluate DoD oversight
     of DFAS development of the DCII, DCD, and associated applications. The
     review of the management control program, as it related to the overall objective,
     will be discussed in a subsequent report. This report is the first in a series of
     reviews of the DCD program. See Appendix A for a discussion of the audit
     scope, methodology, and prior audit coverage.




                                         2
                    Integrating DoD Financial
                    Management Systems
                    DFAS would not be able to achieve its goal of a single, integrated
                    system1 under the existing DCD systems development process. The risk
                    was high because:

                    •   the DoD management and oversight process focuses on individual
                        systems rather than comprehensive oversight of interdependent
                        systems and processes.

                    •   the DFAS owned only 48 of the 168 critical DoD finance,
                        accounting, and feeder systems that provide financial management
                        data.

                    As a result, DoD could not be sure that development of the DFAS
                    Corporate Information Infrastructure, the DFAS Corporate Database,
                    and other financial management, accounting, and feeder systems will:

                    •   Succeed in creating a single, integrated financial management system
                        to achieve the DoD goals outlined in the 1999 Financial Management
                        Improvement Plan and comply with statutory requirements.

                    •   Standardize DoD business processes; reduce the number of finance,
                        accounting, and feeder systems; reduce costs, and improve mission
                        area visibility, and produce reliable, accurate and auditable financial
                        information.

DoD Efforts to Improve Financial Management
           To address financial management concerns and Office of Management and
           Budget Circular No. A-127 requirements, DoD outlined an approach in its
           1999 Financial Management Improvement Plan. The approach is based on an
           infrastructure model that can reduce the number of financial systems and
           facilitate standardization of information systems.




1
    A single integrated system can be a system of systems based upon the same standards; however, it
    would be expensive to immediately transform the systems of a large organization, such as DoD, to
    reflect a single standard. Therefore, DFAS is developing the DCII as a single integrated architecture
    that would accommodate data sharing with a myriad of the Services' feeder systems that are based on
    different standards. For example, the Services are purchasing management information systems based
    upon commercial standards which requires DFAS to ensure that financial data produced from those
    systems is compliant with the DCII.


                                                      3
        Technical Infrastructure Model. The technical infrastructure model reduces
        the number of crosswalks2 between interdependent systems by requiring all
        systems in the infrastructure share a common data structure, use the standard
        fiscal code as the single line of accounting, and follow standard business rules.
        Use of the technical infrastructure model will enable DoD to comply with Office
        of Management and Budget Circular No. A-127 by reducing the need to
        translate or crosswalk data between systems. See Appendix C for a detailed
        explanation of the technical infrastructure model.

        Development of DCII and DCD. To meet Office of Management and Budget
        Circular No. A-127 requirements, DFAS developed a strategy to implement the
        technical infrastructure model and consolidate and standardize finance and
        accounting into a single, integrated financial management system. The DCII is
        the cornerstone of this effort. The DCII is an integrated collection of
        procedures, policies, and standards that provide centralized management,
        analysis, and reporting of data; information security; and data transfer and
        translation capabilities. The DCII is an integrated environment and major
        components include the DCD, the DFAS Corporate Warehouse, the DFAS
        Corporate Repository, and DCII-compliant finance and accounting applications.
        A diagram of the proposed DCII systems and applications in the FY 2005
        Finance and Accounting Environment is provided on page 5. See Appendix D
        for a description of the systems and applications.

                DFAS Corporate Database. When implemented, DCD will make
        accounting and finance information available to many users and applications at
        the same time. Approximately eighty percent of the data in DCD will originate
        from feeder systems, and the remainder will originate from DFAS systems.
        The DCD will eliminate storage of multiple instances of data as well as the
        inefficiencies and reconciliation processes that can result when data are passed
        back and forth between applications. DFAS stated that by integrating the
        entitlement, disbursing, and accounting data, the DCD should eliminate
        unmatched disbursements, negative unliquidated obligations, and the time delays
        associated with prevalidation. As an example, the Standard Procurement
        System will transmit contract data to the DCD, at which time the DCD will post
        the obligation and send the information to the accounting system and Defense
        Procurement Payment System. Invoices and receiving reports will be sent for
        payment authorization by way of the DCD to the Defense Procurement Payment
        System. When complete, the Defense Procurement Payment System transmits
        the disbursement information to the DCD, which transmits the information to
        the Defense Standard Disbursing Systems and the appropriate accounting
        system. Therefore, the DCD will be the hub of DoD contractual transactions
        and should keep the entitlement, disbursing, and accounting systems in balance.




2
A crosswalk is a computer program that translates Service-unique data into a standard DoD format.
DCD uses tables to convert the data. A crosswalk is necessary when systems that need to share
information are developed based upon different data structures, lines of accounting, and business rules.
The crosswalk translates the data from one system to the other so that they can communicate.



                                                   4
Expected FY 2005 DFAS Finance and Accounting Environment

        DFAS Corporate Warehouse. The DFAS Corporate Warehouse is a
historical database that will store and manage official DFAS information for
analysis and generation of operational reports and queries. All official reports
will be generated from the DFAS Corporate Warehouse. Data in the DFAS
Corporate Warehouse will originate from the DCD and feeder systems.




                                    5
            DFAS Corporate Repository. The DFAS Corporate Repository is a
    centrally managed, shared corporate repository. The repository will allow for
    storage, retrieval, and maintenance of DFAS corporate tools, models,
    applications, and reusable software modules to standardize system development.
    Since the DCII will be fielded in increments (releases) over several years, this
    repository will allow for software reuse and standardization during
    development.

           DCII Applications. DCII applications are systems built for specific
    business functions that meet the specifications defined by the DCII architecture.
    An example of this is the Defense Standard Disbursing System, which is being
    developed to be the standard disbursing system for DoD. The Defense Standard
    Disbursing System will interface with DCD using standard business rules and
    data, but no crosswalks, as defined by the DCII specifications. Another system
    being developed within the DCII is the Defense Procurement Payment System,
    intended to be the standard contract and vendor payment system.

    Costs for DCII and DCD. Total costs for the DCII have not been identified at
    this time. The DCII has multiple releases spanning several years; however,
    out-year functional requirements have not been finalized and costs cannot be
    identified at this time. The estimated program cost for the DCD and the
    warehouse is expected to be approximately $46 million. The DCD program
    received Milestone 0 approval in May 1999 and should be completed by 2007.

Achieving Integrated Financial Management
    Requirements for DCII Success. Development of DCII and DCD represents a
    positive step toward developing an integrated financial management system and
    meeting Office of Management and Budget Circular No. A-127 requirements.
    The DCII is a comprehensive approach to identifying and reviewing financial
    weaknesses throughout DoD via data standardization and system integration. To
    be successful, however, DoD must provide integrated management and
    oversight of DCII and DCD to include:

       •   identification and inclusion of all necessary finance, accounting, and
           feeder systems that support the DCII;

       •   coordination among owners of finance, accounting, and feeder systems
           to ensure that common business rules are applied for interoperability;
           and

       •   conformance to data standardization requirements such as common data
           elements, standard fiscal code, and standard business rules.

    Potential for DCII Success. DFAS will not be able to achieve the goal of a
    single integrated system, including the use of standard data and business rules,
    under the existing DoD systems development process. This is because the




                                        6
            present DoD management and oversight of systems does not require
            comprehensive oversight that includes interdependent systems and processes.
            Specifically,

                •    DoD management and oversight process focuses on individual systems
                     rather than oversight of interdependent systems and processes, and

                •    DFAS owns only 48 of the 168 critical DoD finance, accounting, and
                     feeder systems that provide financial management data.

            Management and Oversight Process. At present, oversight at the DoD level
            for information technology systems under development is performed on an
            individual system-by-system basis by an Information Technology Overarching
            Integrated Product Team (ITOIPT). Further, such oversight is generally limited
            to systems that exceeded cost thresholds or are deemed to be of special interest. 3
                    Overarching Integrated Product Team. The ITOIPT is a review board
            headed by ASD(C3I) and may include participants from the USD(Comptroller);
            the Joint Staff; the Director, Operational Test and Evaluation; the Director,
            Program Analysis and Evaluation; the Director, Acquisition Program
            Integration; and user representatives. The ITOIPT provides DoD-level
            oversight and makes recommendations on systems under development. The
            ITOIPT accomplishes this by periodically reviewing system documents
            including system requirements, the mission need statements, analyses of
            alternatives, and economic analyses. Based upon the documentation, the
            ITOIPT recommends approval for a system to proceed through milestone
            decision points including initiating an acquisition, initiating development, or
            deploying the system.

                   Selection Criteria for Overarching Integrated Product Team System
            Reviews. DoD Regulation 5000.2, “Mandatory Procedures for Major Defense
            Acquisition Programs and Major Automated Information Systems Acquisition
            Programs,” May 11, 1999, permits the aggregation of multiple components as a
            major system for ITOIPT consideration. However, to date, the ASD(C3I) has
            chosen to review systems individually. The ASD(C3I) selects systems for
            ITOIPT oversight based on cost criteria or because of a special interest by DoD
            or Congress. The ITOIPT provides oversight to approximately 71 individual
            DoD systems and initiatives.

            Because of the selection criteria, some systems that support the DCII are being
            developed without the DoD-wide oversight. For example, critical systems being
            developed to support the DCII include DCD, the Defense Procurement Payment
            System and the Defense Standard Disbursing System. Of those systems, only
            Defense Procurement Payment System meets the cost threshold to be considered
            a major system. DCD and the Defense Standard Disbursing System do not meet
            the cost threshold and therefore do not receive any ITOIPT oversight during

3
    DoD Regulation 5000.2, “Mandatory Procedures for Major Defense Acquisition Programs and Major
    Automated Information Systems Acquisition Programs,” May 11, 1999, requires the ASD(C3I) to
    provide oversight to systems that exceed $360 million in life-cycle costs in FY 1996 dollars.
    Additionally, the ASD(C3I) can provide oversight to systems that it deems are special interest regardless
    of cost thresholds.



                                                       7
            development and implementation. In addition, because ITOIPT oversight is
            system-oriented, DCD, the Defense Procurement Payment System, the Defense
            Standard Disbursing System, and DCII are not being addressed in the aggregate
            at the DoD level.

            Ownership of Feeder Systems. Systems under development within the DCII
            will facilitate improved financial statements and financial management by using
            standard data and standard business rules. However, the majority of finance
            and accounting data that will populate the DCII and supporting systems will
            originate from feeder systems. The DoD 1999 Financial Management
            Improvement Program identified a total of 168 critical financial management
            systems, of which DFAS owns 48. The remaining 120 systems are owned by
            the Military Services and Defense Agencies. Consequently, DFAS does not
            control the data, nor does it control the development or modernization of over
            70 percent of the identified critical systems. Therefore, unless they choose to,
            the Military Services and Defense Agency systems do not have to conform to
            DCII standards. DoD Directive 5118.5 requires that DoD Components comply
            with DFAS direction regarding standardization, consolidation, and integration of
            DoD finance and accounting requirement, functions, procedures, and systems.
            However, DFAS is not in the position to mandate their compliance. The
            Military Services and Defense Agencies, including DFAS, are expending
            millions of dollars to modernize systems that may not comply with DCII data
            standards for several years.4

            In addition to the feeder systems, DFAS owns the four major general fund
            accounting systems, of which only the General Accounting and Finance
            Systems - Redesign (GAFS-R) is currently being developed DCII compliant.
            The table on the next page identifies the four general fund accounting systems
            under development or modernization.

                   General Accounting and Finance System – Redesign (GAFS-R).
            DFAS is redesigning GAFS at an investment cost of $42 million to support
            general fund accounting requirements and to be compliant with Chief Financial
            Officer Act requirements.5 DFAS is working with the Air Force to develop
            GAFS-R to also comply with DCII requirements. GAFS–R is being developed
            DCII-compliant and is expected to be functional by the end of FY 2002. Until
            the redesign is completed, the nonstandard data within legacy GAFS must be
            “crosswalked” or translated into a DCII-compliant format. Crosswalk
            development and maintenance can become cumbersome and expensive.

            DFAS anticipates that at least 80,000 crosswalks will be necessary for GAFS.
            Once GAFS-R is DCII compliant, and until the feeder systems to GAFS-R are
            also compliant, then crosswalks will have to be accomplished to translate data
            from the subordinate systems to the major feeder systems such as GAFS-R.

4
    Since implementation of the DCII will not be complete for several years, DFAS acknowledges the need
    to continue non-DCII compliant modernization efforts of feeder systems until the DCII concept of
    operations is demonstrated. In the interim, crosswalks will be developed to transfer non-standard data
    from the feeder systems to DCII compliant systems.

5
    Chief Financial Officer requirements include auditable financial statements.



                                                       8
  General Fund Accounting Systems Under Development or Modernization
                         (in millions of dollars)

                                           Program        DCII         Expected
                System                       Cost       Compliant     Compliance

 Defense Joint Accounting System           $238            No         restructured

 General Finance and Accounting              42            Yes         FY 2001
 System – Redesign (GAFS-R)

 Standard Accounting, Budgeting              41            No          FY 2004
 and Reporting System

 Standard Accounting and                    102            No          FY 2006
 Reporting System



       Defense Joint Accounting System. DFAS has been developing the
Defense Joint Accounting System since 1995 as the single accounting system for
the Army and select Defense Agencies at an expected program cost
of$238 million. The Defense Joint Accounting System met the criteria to
receive ITOIPT level oversight. Under the current development plan, the
Defense Joint Accounting System is being developed using nonstandard data and
transactions. DFAS plans to reengineer the Defense Joint Accounting System to
be DCII-compliant in FY 2005. In a previous report on the Defense Joint
Accounting System, we questioned the adequacy of the ITOIPT review. The
House Appropriations Committee also questioned the adequacy of the Defense
Joint Accounting System oversight because the system will not be used for DoD
accounting. Subsequently, the FY 2001 Defense Authorization Act required the
Secretary of Defense to certify to the House and Senate Armed Services
Committees that the Defense Joint Accounting System meets user needs,
complies with DoD acquisition standards, and complies with the Clinger-Cohen
Act prior to issuing a Milestone III decision. The future direction of this system
remained under review as of December 2000.

       Other General Fund Accounting Systems. The Standard Accounting,
Budgeting, and Reporting System is the Marine Corps general funds system and
the Standard Accounting and Reporting System is the Navy general fund system.
Both are currently operational systems that are undergoing modernization. Both
systems are expected to have modernization completed and be operational by
June 2001. As of April 2000, remaining program costs were $4 million each.




                                    9
    Value of Comprehensive Oversight. The current DoD-wide oversight process
    will not provide for a comprehensive assessment of critical elements of DCII.
    Specifically, the current process does not provide for the identification and
    assessment of all systems that are critical to the DCII including non-DFAS
    owned feeder systems either individually or in the aggregate. Further, the
    current oversight process does not facilitate or ensure coordination among
    system owners to ensure compliance with common business rules or data
    standardization to facilitate interoperability.

Effect of Present Oversight on DCII and DCD
    Because DoD lacks a mechanism to provide comprehensive oversight of
    interrelated systems within an infrastructure such as DCII, critical DCII-related
    systems may not receive the necessary visibility, either individually or in
    conjunction with the other critical systems within DCII. As a result, DoD
    cannot be sure that the development of the DCII, DCD, and other financial
    management, accounting, and feeder systems will lead to the development of an
    integrated financial management system, as planned.

    However, with an effective and comprehensive process to manage and oversee
    multiple, interdependent systems and processes, a single integrated financial
    management system could be developed. Both the ASD(C3I) and
    USD(Comptroller) have initiated steps to address the need for comprehensive
    management and oversight.

    ASD(C3I) Initiatives to Address Portfolio Oversight. The ASD(C3I)
    recognized the limitation of the existing oversight process and the need to have
    visibility during development over the interrelated systems within a business
    process. As early as 1998, the ASD(C3I) recognized the need to consider
    systems development in a portfolio. In July 1998, the ASD(C3I) issued a
    memorandum stating that during the following 6 to 12 months, the ITOIPT
    would transition from focusing on reviews of individual systems to looking
    horizontally across “portfolios” of information technology investments.
    Portfolios would be established by grouping information technology investments
    by mission–related or administrative processes. Further, as part of portfolio
    oversight, trade-offs among investments would be made to maximize benefits to
    the mission and the benefits measured and evaluated in the context of the overall
    strategy for the mission. ASD(C3I) officials envision that portfolio management
    will be an ongoing, collaborative process, performed by stakeholder teams
    representing all life-cycle activities, and driven by mission outcomes and
    contribution to the mission.

    The transition to portfolio management remains incomplete. In 1999, the
    ASD(C3I) initiated draft guidance on portfolio management and oversight. As
    of August 2000, however, the ASD(C3I) continues to work on the guidance that
    remains in draft. ASD(C3I) personnel stated the guidance will address
    Clinger-Cohen Act requirements and DoD life-cycle management requirements,
    which includes a review of mission needs, system alternatives, operational
    requirements, and performance measures. ASD(C3I) personnel stated that, in
    addition to program-specific life-cycle documents, portfolio-based, capstone


                                        10
life-cycle documents should be used to help managers effectively review
information technology investments. The ASD(C3I) has invited DoD Principal
Staff Assistants and representatives from the Military Services, Defense
agencies, and the Inspector General to participate in teams to improve and
finalize the draft guidance.

Finance and Accounting Portfolio. In addition to developing guidance on
portfolio management, the ASD(C3I) acknowledged that the DoD functional area
of finance and accounting may be a good candidate for portfolio management.
ASD(C3I) officials stated that since DCD and other DCII applications are the
catalyst for DoD financial transactions and reporting, this is a compelling case
for comprehensive portfolio oversight to account for the numerous systems that
are now dependent upon each other regardless of system cost. Program
Analysis and Evaluation officials within the USD(Comptroller) further
supported the recommendation that the first portfolio should be composed of
critical finance, accounting, and feeder systems. It should be expected that
some systems will be in several portfolios because they are in multiple
functional areas, such as finance and logistics.

USD(C) Initiatives. The USD(Comptroller) is responsible for the development
and management of finance and accounting systems as well as developing and
maintaining an integrated financial management system within DoD. As such,
the USD(Comptroller) will be primarily responsible for identifying the critical
systems to establish the portfolio(s) for finance and accounting.
USD(Comptroller) continues to develop comprehensive oversight policy for
financial management systems. According to USD(Comptroller) officials, the
policy should implement the 1999 Financial Management Improvement
Program, which sets the foundation for a single, integrated financial
management system.

Adequacy of Efforts to Date. We commend ASD(C3I) for initiating the
portfolio management and oversight process to provide better mission area
visibility for information systems. We also commend DFAS for initiating
development of the DCII and DCD to initiate integration of DoD finance,
accounting, and feeder systems. However, until portfolio oversight and
management is actively performed, DoD cannot be assured that the DCII, DCD,
and other financial management, accounting, and feeder systems will succeed in
creating an integrated financial management system to achieve the DoD goals
outlined in the 1999 DoD Financial Management Improvement Program or meet
Office of Management and Budget Circular No. A-127 requirements. Further,
DoD cannot be assured that DoD business processes will be standardized; the
number of finance, accounting, and feeder systems will be reduced; costs will
be reduced; or mission area visibility will be improved. Additionally, with the
aggregation of systems under review, DoD will be able to maximize the value of




                                   11
investments and ensure that the systems meet the Clinger-Cohen Act
requirement that systems are developed, maintained, and used effectively to
provide financial or performance data for financial statements.

More specifically, without such oversight, ASD(C3I), the USD(Comptroller),
and DFAS cannot:

   •   assess compliance and enforce the use of standard business rules and
       standard data elements such as standard lines of accounting;

   •   facilitate reviews of all viable options and costs for existing and planned
       systems and reduce duplication;

   •   identify and potentially reduce the need for crosswalks between DCII and
       non-compliant systems, and;

   •   assess the effect of schedule slippage on interdependent systems and new
       initiatives.

Remaining Efforts Needed. To expedite and implement portfolio management
over DCII, the stakeholders need to take actions to complete guidance on
portfolio management and oversight, enforce compliance with standardization
requirements, and establish finance, accounting, and feeder system portfolio(s)
to include all critical systems. Specifically, both the ASD(C3I) and
USD(Comptroller) need to complete guidance on portfolio management. In
addition, as the DoD organization responsible for implementing information
management policy, processes and standards, the ASD(C3I) should enforce and
monitor compliance with the technical infrastructure model as part of portfolio
management and oversight. To facilitate comprehensive oversight of the DCII,
the USD(Comptroller), in cooperation with the ASD(C3I), should establish a
DCII portfolio to include critical finance, accounting and feeder systems. The
Year 2000 approach could be used to help develop the portfolios. For example,
DoD used the Year 2000 approach to identify systems critical to DoD
operations. A similar approach can be used to build portfolios based upon their
importance to DoD. According to DoD Directives 5118.3 and 5118.5, the
USD(Comptroller), as the DoD Chief Financial Officer, is responsible for
developing and maintaining an integrated DoD accounting and financial
management system, while DFAS is responsible for directing standardization
and integration requirements and procedures. As such, the USD(Comptroller)
must assist DFAS in enforcing DFAS standardization requirements throughout
DoD, to include the DoD Components.

In addition, as part of the portfolio process, the ASD(C3I) and
USD(Comptroller), should examine the cost effectiveness and appropriateness of
the current development of non-DCII compliant systems that will feed DCII.
This effort should include other general fund accounting systems.




                                    12
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence):

           a. Establish a date for completion and publish guidance on portfolio
    management to include consideration of Federal regulations and DoD
    requirements.

    Management Comments. The Assistant Secretary of Defense (Command
    Control, Communications and Intelligence) agreed in principle that portfolio
    management guidance was necessary; however, he stated that such guidance will
    be included in the DoD 5000 series rather than separately. Specifically, the
    Assistant Secretary will work with the Office of the Under Secretary of Defense
    (Acquisition, Technology, and Logistics) to develop procedures for family of
    systems reviews to be included in DoD Instruction 5000.2. DoD Regulation
    5000.2-R will also be updated to include procedures for family of systems and
    mission area reviews. Further, overarching guidance for portfolio management
    and oversight will be issued by the end of FY 2001.

           b. Perform compliance reviews using the technical infrastructure
    model on a cost-effective basis for all systems and processes within the
    finance, accounting, and feeder system portfolio(s).

    Management Comments. The Assistant Secretary of Defense (Command
    Control, Communications and Intelligence) concurred. He will conduct family
    of systems reviews in coordination with the Under Secretary of Defense
    (Comptroller/Chief Financial Officer) using the technical infrastructure model
    and other criteria.

          c. Perform assessments of compliance with the Defense Finance and
    Accounting Service Corporate Information Infrastructure for reviews of
    DoD finance, accounting, and feeder systems.

    Management Comments. The Assistant Secretary of Defense (Command
    Control, Communications and Intelligence) concurred and stated that, in
    coordination with the Under Secretary of Defense (Comptroller/Chief Financial
    Officer), he will assess compliance with the Defense Finance and Accounting
    Service Corporate Information Infrastructure for reviews of the finance and
    accounting mission and business areas.




                                       13
Audit Response. Comments from the Assistant Secretary of Defense
(Command Control, Communications and Intelligence) were responsive. The
Assistant Secretary agreed to conduct family of systems reviews for compliance
with the technical infrastructure model and other criteria in coordination with
the Under Secretary of Defense (Comptroller/Chief Financial Officer).
Additionally, the Assistant Secretary of Defense (Command Control,
Communications and Intelligence) agreed that guidance on portfolio
management should be completed and published.

2. We recommend that the Under Secretary of Defense (Comptroller/Chief
   Financial Officer):

      a. Complete guidance implementing the 1999 Financial Management
Improvement Plan to include a requirement to use portfolio management.

Management Comments. The Under Secretary of Defense (Comptroller/Chief
Financial Officer) stated that the Financial Management Improvement Plan
already requires DoD Components to integrate planning, development,
modification, enhancement, and implementation of financial and feeder systems.
However, the Under Secretary will modify the Financial Management
Improvement Plan to reflect additional requirements included in family of
systems guidance issued by the Assistant Secretary of Defense (Command
Control, Communications and Intelligence).

Audit Response. Comments from the Under Secretary of Defense
(Comptroller/Chief Financial Officer) were partially responsive. The Under
Secretary agreed to update the Financial Management Improvement Plan to
conform to the family of system guidance to be issued by the Assistant Secretary
of Defense (Command Control, Communications and Intelligence); however,
the opportunity to change the 2000 version of the Plan has just been missed and,
if nothing is done until the next iteration of the Plan, the guidance will not be
issued until the end of FY or CY 2001. Given that the Defense Finance and
Accounting Service Corporate Database and interdependent systems, such as the
Defense Procurement Payment System, are presently being developed
concurrently, it may not be prudent to delay addressing portfolio management
until guidance is published and incorporated into the Financial Management
Improvement Plan. Therefore, we request that the Under Secretary of Defense
(Comptroller/Chief Financial Officer) provide additional comments on the
feasibility of interim guidance.

       b. Establish a finance, accounting, and feeder portfolio(s) in
coordination with the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) and assist in identification of applicable
systems to include critical systems, such as the Defense Finance and
Accounting Service Corporate Database, which do not meet cost-review
thresholds. The Defense Finance and Accounting Service Corporate
Information Infrastructure and Defense Finance and Accounting Service
Corporate Database should be central to the portfolio(s).

Management Comments. The Under Secretary of Defense (Comptroller/Chief
Financial Officer) stated that the Financial Management Improvement Plan
contains critical finance, accounting, and feeder systems regardless of

                                   14
cost-review thresholds. Upon formal publication of the Assistant Secretary of
Defense (Command Control, Communications and Intelligence) guidance on
family of systems, the Under Secretary will evaluate such guidance to determine
if any changes are needed in the Department’s current Financial and Feeder
Systems Compliance Process approach to managing its financial and feeder
systems on an integrated basis.

Audit Response. Comments from the Under Secretary of Defense
(Comptroller/Chief Financial Officer) were generally responsive.

       c. Require DoD Components to comply with the Defense Finance
and Accounting Service direction on consolidation, standardization, and
integration of DoD finance and accounting requirements, functions,
procedures, operations, and systems contained in DoD Directive 5118.3,
“Under Secretary of Defense (Comptroller/Chief Financial Officer) Chief
Financial Officer, DoD,” and 5118.5, “Defense Finance and Accounting
Service.”

Management Comments. The Under Secretary of Defense (Comptroller/Chief
Financial Officer) agreed to reference DoD Directives 5118.3 and 5118.5 when
the Memorandums of Agreement are established between the Defense Finance
and Accounting Service and the owners of the feeder systems under the
Department’s Financial and Feeder Systems Compliance Process.

Audit Response. Comments from Under Secretary of Defense
(Comptroller/Chief Financial Officer) were responsive.

       d. Require the Director, Defense Finance and Accounting Service, to
show how systems under development or modernization will fit into the
Defense Finance and Accounting Service Corporate Information
Infrastructure architecture until they are reengineered.

Management Comments. The Under Secretary of Defense (Comptroller/Chief
Financial Officer) stated that crosswalks will be utilized to translate nonstandard
systems data into a format that is compliant with the Defense Corporate
Information Infrastructure until modernization and reengineering of systems are
complete. By utilizing crosswalks, data standardization, standard edits, and
universal business rules will be implemented, while facilitating crosswalking of
data between the Defense Corporate Information Infrastructure Common
Environment and legacy systems.

Audit Response. Comments from the Under Secretary of Defense
(Comptroller/Chief Financial Officer) were responsive.




                                    15
Appendix A. Audit Process

Scope
    The audit was conducted in support of our financial statement audits required by
    the Chief Financial Officers Act of 1990, as amended by the Federal Financial
    Management Act of 1994 and the Federal Financial Management Improvement
    Act of 1996. The overall objective of the audit was to review development of
    the DCD and impact on entitlement, disbursing, and accounting functions. This
    report is the first in a series related to the DCD, and discusses DoD oversight of
    DFAS development of the DCII, DCD, and associated applications. The review
    of the management control program as it relates to the overall objective will be
    discussed as part of a subsequent report. Other reports will address life-cycle
    management, DoD data standardization, and database security.

    The DCII is the infrastructure DFAS designed to achieve data and business
    process standardization. The DCD is a central database that will allow
    accounting and finance information to be available simultaneously to many users
    and applications. The DCD will eliminate storage of multiple instances of data
    as well as inefficiencies and reconciliation processes that can result when data
    are passed back and forth between applications. The DCD will incrementally
    integrate DFAS system initiatives while minimizing change to legacy
    applications. The DCD is required to attain the full benefits associated with
    major initiatives such as the Defense Procurement Payment System, Defense
    Standard Disbursing System, Defense Cash Accountability System, and Defense
    Departmental Reporting System.

    Work Performed. We reviewed the DFAS approach to management and
    development of the DCII, DCD, and associated applications. We obtained a
    general understanding of the DFAS standardization efforts such as the Standard
    Fiscal Code and pro forma entries and how they impact the finance and
    accounting systems.

    The methodology of the review included interviews and analyses of
    documentation for DCD and other DCII applications. Specifically, we
    interviewed DFAS, the ASD(C3I), and USD(COMPTROLLER) personnel to
    obtain a basic understanding of the DCII, DCD, and the proposed DoD portfolio
    management approach.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,




                                        16
subordinate performance goals, and performance measures. This report pertains
to achievement of the following goal(s), subordinate performance goal(s), and
performance measures:

       •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an
           uncertain future by pursuing a focused modernization effort that
           maintains U.S. qualitative superiority in key warfighting capabilities.
           Transform the force by exploiting the Revolution in Military Affairs,
           and reengineer the Department to achieve a 21st century
           infrastructure. (01-DoD-2)

       •   FY 2001 Performance Measure 2.5.1: Reduce the number of
           noncompliant accounting and finance systems (01-DoD-2.5.1)

       •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
           financial and information management. (01-DoD-2.5)

       •   FY 2001 Performance Measure 2.5.3: Qualitative assessment of
           reforming information technology management. (01-DoD-2.5.3).

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following functional area objectives and
goals:

       •   Financial Management Area. Objective: Consolidate finance and
           accounting operations. Goals: Consolidate finance and accounting
           center and field operations, consolidate and standardize financial
           systems, and reduce and improve accounting systems. (FM-1.1-2
           and 2.1-2)

       •   Financial Management Area. Objective: Reengineer DoD
           business practices. Goals: Improve data standardization of finance
           and accounting data items and standardize Budget and Accounting
           Classification Code structural data elements. (FM-4.4-5)

       •   Financial Management Area. Objective: Improve management
           incentives. Goal: Use the Project Management Office for
           accounting systems to provide centralized management control and
           oversight for all migratory and interim migratory accounting
           systems. (FM-7.5)

       •   Information Technology Management. Objective: Provide
           services that satisfy customer information needs. Goals: Build
           architecture and performance infrastructures and modernize and
           integrate Defense information infrastructure. (ITM-2.1-2)




                                    17
    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management and Defense infrastructure high-risk
    areas.

Methodology
    Use of Computer-Processed Data. We did not use computer-processed data in
    this audit.

    Audit Period and Standards. We performed this program audit from
    December 1999 through August 2000. The audit was performed in accordance
    with auditing standards issued by the Comptroller General of the United States,
    as implemented by the Inspector General, DoD. Accordingly, we included tests
    of management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available upon request.

Prior Coverage
    No prior reports on DCD have been completed. The General Accounting Office
    and the Inspector General, DoD, have conducted multiple reviews related to
    financial management issues. The General Accounting Office reports can be
    accessed on the Internet at http://www.gao.gov. Inspector General, DoD,
    reports can be accessed on the Internet at http://www.dodig.osd.mil/audit/reports.




                                        18
Appendix B. Financial Systems Requirements
   Chief Financial Officers Act of 1990. The Chief Financial Officers Act of
   1990 requires the head of each agency to submit a proposal for reorganizing the
   agency with respect to the financial management functions to the Director of
   Office of Management and Budget. Each executive agency is required to
   prepare annual financial statements for submission to the Director, and an audit
   must be performed on each financial statement prepared under this act.

   Federal Financial Management Act of 1994. The Federal Financial
   Management Act of 1994 requires that each agency prepare and submit annual
   audited financial statements on all activities to the Director of Office of
   Management and Budget.

   Clinger-Cohen Act. The Clinger-Cohen Act, formerly the Information
   Technology Management Reform Act of 1996, requires that the head of each
   executive agency, in consultation with the Chief Information Officer and the
   Chief Financial Officer, establish policies and procedures. These policies and
   procedures are to ensure that the accounting, financial, and asset management
   systems and other information systems of the executive agency are designed,
   developed, maintained, and used effectively to provide financial or program
   performance data for financial statements of the executive agency. The head of
   each executive agency is also responsible for the design and implementation of a
   process to maximize the value and manage the risks of information technology
   acquisitions of the agency.

   Federal Financial Management Improvement Act of 1996. The Federal
   Financial Management Improvement Act of 1996 requires each agency to
   implement and maintain financial management systems that comply substantially
   with Federal financial management systems requirements, applicable Federal
   accounting standards, and the U.S. Government Standard General Ledger at the
   transaction level.

   Office of Management and Budget Circular No. A-127, Financial
   Management Systems, July 23, 1993. Office of Management and Budget
   Circular No. A-127 prescribes policies and standards for Federal Agencies to
   follow for developing and operating financial management systems. Each
   system must reflect an agency-wide financial information classification
   consistent with the U.S. Government Standard General Ledger to minimize data
   redundancy and ensure that consistent information is readily available and
   provided to internal managers at all levels within the organizations. Office of
   Management and Budget Circular No. A-127 requires that each agency establish
   and maintain a single, integrated financial management system that complies
   with accounting principles, internal control standards, and applicable Office of
   Management and Budget and U.S. Treasury requirements. The circular defines
   a single, integrated financial management system as a unified set of financial
   systems and mixed systems that are planned and managed together, operated in
   an integrated fashion, and linked electronically to provide agency-wide financial
   system support.




                                      19
Office of Management and Budget Circular No. A-130, “Management of
Federal Information Resources,” February 8, 1996. Office of Management
and Budget Circular No. A-130 establishes policy for the management of
Federal information resources for all agencies of the executive branch of the
Federal government. It also defines a minimum set of controls to be included in
Federal automated information security programs.

A cost-benefit analysis for each system shall be prepared and updated as
necessary throughout the information life cycle. Post-implementation reviews of
information systems should also be conducted to validate the estimated benefits
and document effective management practices. Information system management
oversight mechanisms shall be utilized to ensure each system meets agency
mission requirements.

Information systems should be developed to facilitate interoperability,
application portability, and scalability of computerized applications across
networks of heterogeneous hardware, software, and communications platforms.
Improvements to existing information systems and development of planned
information systems must not unnecessarily duplicate information systems
available within the same agency or from other agencies. Intra-agency and
inter-agency sharing should be conducted, when cost effective, to meet
information technology needs before new technology resources are acquired.

A plan for adequate security of each major application should be established and
take into account security of all systems within which the application will
operate. Specific controls to protect information should be defined, and a
summary of the security plan shall be incorporated into the strategic information
resource management plan. Security controls should be reviewed when
significant modifications are made by an independent audit or self-review at a
minimum of every three years.

Joint Financial Management Improvement Program, February 1999. The
Joint Financial Management Improvement Program publishes documents to
provide overall objectives and strategies for achieving improved financial
management.

The financial management system plan shall support the agency’s mission and
programs, and be incorporated into the agency plans for information technology
infrastructure and information systems as a whole. The financial management
system must:

   •   use standardized transactions;

   •   have the capability to perform integrity checks on batches of data
       received via interfaces;

   •   have the capability to process, record and track transactions originating
       in other systems to provide a basis for central financial control.
       Transactions must be handled consistently, regardless of their point of
       origin;



                                   20
   •   implement controls over the correction and reprocessing of all erroneous
       transactions by the use of error files or suspense accounts;

   •   restrict access to authorized users;

   •   have audit trails that trace transactions from their original input to the
       financial statements; and

   •   have an audit trail identifying changes made to system parameters and
       tables that affect processing or reprocessing of financial transactions;

DoD Manual 8320.1, “Data Administration Procedures,” March 1994. The
purpose of data standardization is to create standard data that can be shared
horizontally and vertically. Standard data are developed through the use of
approved integrated data models, which involve logically identifying, grouping,
and classifying data.

DoD Regulation 5000.2, “Mandatory Procedures for Major Defense
Acquisition Programs and Major Automated Information Systems
Acquisition Programs,” May 11, 1999. DoD Regulation 5000.2 defines the
process that major automated information systems will follow during the
acquisition process. The process encompasses logical phases separated by major
decision points called milestones. The regulation allows for tailoring
documents, but requires documentation of costs, schedule and performance
objectives, and thresholds in an acquisition program baseline for every
acquisition program. The performance parameters should be consistent with
those in the requirements documentation, and schedule parameters must include
program initiation, major milestone decision points, initial operating capability,
and other critical system events. Cost parameters must be based on careful
assessment of risks and appraisals of the total program, and must also reflect
realistic cost estimates.

The level of review is based on the acquisition category. Acquisition
Category IA programs are major automated information systems or programs
designated by the Assistant Secretary of Defense for Command, Control,
Communications, and Intelligence (ASD[C3I]) as such. A major automated
information system is an acquisition program that is either (1) designated by the
ASD(C3I) as a major automated information system, or (2) estimated to require
program costs in any single year in excess of $30 million in FY 1996 constant
dollars, total program costs in excess of $120 million in FY 1996 constant
dollars, or total life-cycle costs in excess of $360 million in FY 1996 constant
dollars. For the purpose of determining whether an system is major, the
following shall be aggregated and considered a single system: (1) the separate
systems that constitute a multi-element program; (2) the separate systems that
make up an evolutionary or incrementally developed program; or (3) the
separate systems that make up a multi-component automated information system
program.




                                    21
Appendix C. Technical Infrastructure Model
   The following chart depicts the technical infrastructure model as defined in the
   DoD 1999 Financial Management Improvement Program. According to the
   Financial Management Improvement Program, implementation of the model will
   provide the proper underlying support from which effective and efficient
   financial management functions are performed.



                                 Building Blocks
                         of the Technical Infrastructure


                                           Corporate
             SYSTEM                       Database &
          ARCHITECTURE                    Warehouse

            SYSTEM                     Core Applications
         APPLICATIONS
           SYSTEM                                 Information
                           Feeder Systems
         INTERFACES                                 Transfer

         DATA           Common            Standard       Standard
                      Data Structure     Fiscal Code   Business Rules

                                 INTERNAL CONTROLS




           Common Data Structure. Using a common data structure means that
   similar elements in different systems would use the names and attributes
   available in a standard data dictionary system (for example, the Defense Data
   Dictionary System). This would reduce the need for crosswalks to translate data
   between the DFAS Corporate Database (DCD) and other systems that use
   different names and attributes.

           Standard Fiscal Code. The standard fiscal code is the approved DoD
   single line of accounting. DoD expects that utilizing the standard fiscal code
   should help provide for comparable financial statements by recording
   transactions consistently and providing for uniform postings to the general
   ledger accounts. Presently, DFAS states that the standard fiscal code contains
   some redundant entries for Army, Navy, and Air Force values. DFAS will
   continue to refine the standard fiscal code as DFAS Corporate Information
   Infrastructure (DCII) and DCD development continues and will work with the
   Services to eliminate the redundant values.




                                           22
        Standard Business Rules. DFAS is currently developing the standard
business rules for accounting and finance. Standard business rules ensure that
data from different systems are comparable when aggregated. If different DoD
Components are allowed to use different business rules, their data may not be
comparable because the Components would have made different valuation
assumptions. For example, if Component A valued inventory on the last-in,
first-out method and Component B valued similar inventory on the first-in,
first-out method, the financial statements would be misstated when aggregated.
Even if a common data structure and the standard fiscal code were used, without
standard business rules, a misstatement would still occur.

DoD Financial Transactions. DFAS owns the core applications, corporate
database, and corporate warehouse. Eighty percent of the DoD financial
transactions DFAS processes originate from feeder systems, owned by the
Services and other Defense Agencies. The financial transactions, official
reports, and financial statements, will culminate in the corporate warehouse.




                                   23
Appendix D. Description of Systems

 DCII Entitlement Systems
   Defense Procurement Payment System (DPPS). The Defense Procurement
   Payment System DFAS consolidation and migration initiative will become the
   standard DoD procurement payment system used to calculate contract and
   vendor payments, along with grant and other agreement entitlements. Primary
   sources of data for the Defense Procurement Payment System will be generated
   from DCD. The consolidation and migration initiative will focus on
   reengineering business processes, resolving known system deficiencies, and
   defining standard and shareable financial data for contract and vendor
   entitlement.

   Defense Civilian Pay System (DCPS). The Defense Civilian Pay System is the
   single, migratory DFAS automated information system that supports civilian
   payroll operations for the DoD. The major purpose of the Defense Civilian Pay
   System is to provide compliant, reliable, timely, accurate, and affordable
   payroll service to the DoD and to provide flexibility and responsiveness for
   meeting the changing needs of the DoD. The Defense Civilian Pay System will
   remain as the sole civilian pay system, interfacing with 11 migratory finance
   and accounting systems.

   Defense Integrated Human Resources System (DIMHRS). The Defense
   Integrated Human Resources System will be a single, fully integrated military
   personnel and pay system that will support all levels, from field to headquarters.

   Defense Retiree and Annuitant Pay System (DRAS). The Defense Retiree
   and Annuitant Pay System is the migratory DFAS system that establishes,
   adjudicates, and maintains accounts for DoD military retirees, their former
   spouses, and garnishment recipients. The system maintains historical payroll
   information, retirement factors, Survivors Benefit Plan election data, and
   Federal employment data. The Defense Retiree and Annuitant Pay System will
   continue as the single retirement pay system.

   Defense Transportation Pay System (DTRS). The Defense Transportation
   Pay System is a migratory DFAS entitlement system used to compute
   transportation payments for surface freight and personal property/household
   goods. The Defense Transportation Pay System was designed to standardize
   and consolidate all transportation payments making maximum use of Electronic
   Data Interchange processing. Portions of this business area are being
   transitioned to PowerTrack service, which is run by a commercial bank. The
   bank will make payments to the commercial carriers, and DFAS will be
   reimbursed through commercial invoices. The system will track transactions,
   generate accounting and finance system update records, and will replace the
   Transportation Support System. Implementation of PowerTrack at
   transportation offices began in March 1999 and will continue through
   September 2000.



                                       24
    Defense Travel System (DTS). The Defense Travel System is a seamless,
    paperless, temporary duty travel system that meets the needs of travelers,
    commanders, and process owners. The Defense Travel System enables DoD
    travelers to request travel arrangements electronically from commercial
    providers, obtain travel authorization and itinerary, and submit final travel
    claims for approval and computation of entitlement. The Defense Travel
    System uses the DoD Public Key Infrastructure for digital signature, encrypts
    sensitive data in accordance with General Accounting Office guidelines,
    interfaces with DoD accounting and disbursing systems through Electronic Data
    Interchange, and digitally stores all DoD travel data.

DCII Accounting Systems
    Defense Cash Accountability System (DCAS). The Defense Cash
    Accountability System consolidation initiative is the final migratory system
    selected by the DFAS to be the single cash accountability system for DoD.
    Cash accountability is the reporting of disbursements, reimbursements, deposits,
    and receipts to the U.S. Treasury, as well as the reporting of all other
    transactions that would affect the status of funds.

    Defense Integrated Financial System for Foreign Military Sales –
    Reengineered (DIFS-R). The Defense Integrated Financial System for Foreign
    Military Sales - Reengineered is the DFAS migratory system supports the
    corporate security assistance accounting business area, specifically the Foreign
    Military Sales program and International Debt Management. Analysis indicates
    that the Defense Integrated Financial System for Foreign Military
    Sales - Reengineered will retain 54 percent accounting functionality, and the
    46 percent of nonaccounting functionality will migrate to a new system under
    development by the Defense Security Cooperation Agency. As a result of this
    analysis, DFAS is reassessing the role (and need) of the Defense Integrated
    Financial System for Foreign Military Sales - Reengineered in the target
    architecture.

    Defense Joint Accounting System (DJAS). The Defense Joint Accounting
    System is identified as the DFAS migratory general accounting system for the
    DFAS-Indianapolis customer base. In the Appropriations Conference
    Committee Report 106-754, July 17, 2000, the Defense Joint Accounting
    System was terminated.

    GAFS – Redesign (GAFS-R). GAFS-R is the DFAS migratory general fund
    accounting system for centralized accounting, reporting, analysis, and
    reconciliation of funds appropriated to, or administered by, the DoD and the Air
    Force. This initiative will reengineer GAFS to provide a relational database that
    will operate in an open systems environment for integration with DCD to update
    a general ledger using the standard chart of accounts and prepare financial
    statements. This initiative will also install the standard fiscal code, incorporate
    acquisition accounting functionality, and improve the accounts receivable and
    reimbursements processes.




                                        25
Standard Accounting Budgeting and Reporting System (SABRS). The
Standard Accounting Budgeting and Reporting System initiative is the DFAS
migratory accounting system for the Marine Corps general funds accounting.
This initiative will focus on compliance with statutory and regulatory guidance,
data integration, and accuracy.

Standard Accounting and Reporting System (STARS). The Standard
Accounting and Reporting System is the DFAS-owned migratory accounting
system for consolidation of all Department of the Navy general fund accounting,
commercial entitlement and reporting operations.

Defense Working Capital Accounting System (DWAS). The Defense
Working Capital Accounting System is the DFAS-owned migratory system
designed to account for the base operations support activities of the Public
Works Centers and Naval Facilities Engineering Service Centers as well as
Printing and Publications operations of the Defense Automated Printing Service.
Base operations support services extend to a variety of support services,
including fuel provision, transportation management, utility delivery and
management, material distribution, housing administration, and other support
for Navy bases and personnel.

Standard Industrial Fund System (SIFS). The Standard Industrial Fund
System is a migratory DFAS system that provides accounting support to the
Army depot maintenance business area, which includes depot maintenance
facilities and arsenals. The four Standard Industrial Fund System subprocesses
are Automated Internal Operating Budget, Cost Accounting and Budget,
Financial Inventory Accounting and General Fund, and Methods and Standards.

Material Financial Control System (MFCS). The Material Financial Control
System is the DFAS-owned migratory Defense Working Capital Fund system
for the Navy Wholesale supply management business area. The Material
Financial Control System will be enhanced to satisfy regulatory and statutory
requirements, including the Anti Deficiency Act, Chief Financial Officers Act,
and requirements of the U.S. Treasury, the Office of Management and Budget,
and Congress.

Standard Material Accounting System (SMAS). The Standard Material
Accounting System is the DFAS-owned migratory Defense Working Capital
Fund system supporting the Air Force retail supply management business area.
The system maintains accounting records for fixed assets, inventory,
receivables, payables, funds, and management information.

Commodity Command Standard System (CCSS). The Commodity Command
Standard System is the standard DFAS migratory financial accounting system
for the five inventory control points in the Army Materiel Command. The
Commodity Command Standard System accounts for the funds of the Army
Working Capital Fund. The system represents the primary wholesale logistics
management system in the Army. The Commodity Command Standard System
retail process will be replaced by the Army Single Stock Fund.




                                   26
Military Sealift Command Financial Management System (MSCFMS). The
Military Sealift Command Financial Management System is a DFAS migratory
system for the Navy transportation business area.

Defense Industrial Financial Management System (DIFMS). The Defense
Industrial Financial Management System is a DFAS-owned migratory system
that originally belonged to the Naval Air Systems Command and used at six
Naval Aviation Depots.

Columbus Working Capital Fund (CO WCF). The Columbus Working
Capital Fund initiative will focus on reengineering business processes,
consolidating and standardizing systems, improving data accuracy, improving
internal controls, integrating with other communities, and standardizing and
warehousing data.

Fuels Automated System (FAS). The Fuels Automated System is a
commercial-off-the-shelf package consisting of accounts payable, general ledger,
accounts receivable, inventory accounting, purchasing, order entry, and alert
modules. The open systems architecture and full integration supports a
reduction in data redundancy, data inconsistency and reconciliation, duplicate
data entry, paper handling, negative unliquidated obligations, and
overpayments. In addition, it supports improved business practices through
electronic commerce, decision support capability, processing and reporting
capabilities, cash management controls, and budget and Program Objective
Memorandum data.

Program Budget Accounting System-Funds Distribution (PBAS-FD). The
Program Budget Accounting System-Funds Distribution is a DFAS migratory
system used to distribute funds for the Office of the Secretary of Defense, Navy,
and the Corps of Engineers. The Program Budget Accounting System-Funds
Distribution customer base includes financial managers from the Defense
Agencies and activities. The Office of the Secretary of Defense, Navy and the
Corps of Engineers financial managers use the Program Budget Accounting
System-Funds Distribution to electronically receive and issue funding. The
Program Budget Accounting System-Funds Distribution prevents the
over-distribution of funding and controls below threshold reprogramming based
on limitations established by Congress.

DFAS Corporate Database (DCD). DCD is a central database that will allow
accounting and finance information to be available to many users and
applications at the same time. This central database will eliminate the storage of
multiple instances of data and the inefficiencies and reconciliation processes that
result when data are passed back and forth between applications. The DCD will
incrementally integrate DFAS system initiatives while minimizing change to
legacy applications. The DCD is required for the achieving the benefits




                                    27
associated with major standardization initiatives, such as the Defense
Procurement Payment System, Defense Cash Accountability System, the
Defense Standard Disbursing System, and the Defense Departmental Reporting
System. By integrating the entitlement, disbursing, and accounting data, the
DCD should eliminate unmatched disbursements, negative unliquidated
obligations, and the time delays associated with prevalidation.

Industrial Fund Accounting System (IFAS) - Information Services Business
Area. As a result of an alternative analysis performed in September 1997, the
recommendation was made to replace the current high-cost functionally and
technically noncompliant Industrial Fund Accounting System with a
commercial-off-the-shelf system. In response, the DFAS Program Management
Office directed baseline comparison of Industrial Fund Accounting System
functionality against the Defense Working Capital Accounting System. To
identify functional gaps in the business processes, a customer-supported detailed
functional analysis was performed for eight functional areas. Concurrently, a
technical analysis was performed that included potential deficiencies in the
technical infrastructure or environment. These studies resulted in identifying
the gaps and development of the estimated cost for converting to a
commercial-off-the-shelf system.

Upon completion of the analysis, the Industrial Fund Accounting System
Executive Level Steering Group voted unanimously that the baseline Defense
Working Capital Accounting System would be a good fit for the Information
Services Business Area and requested an October 2000 conversion. Based on
the customer enthusiasm and support during this effort and the identification of a
10-year life cycle savings of $8.2 million, the Industrial Fund Accounting
System Program Management Office requested approval for project continuation
and funding to support the Information Services Business Area commercial-off-
the-shelf conversion. DFAS Headquarters delayed the project because of a lack
of funding available in the current Capital Budget. The Information Services
Business Area commercial-off-the-shelf conversion is delayed until FY 2003.

Defense Logistics Agency Business System Modernization (DLA BSM). In
July 1998, the Defense Integrated Subsistence Management System formed the
Business System Modernization Steering Group. The Business System
Modernization will replace the Defense Logistics Agency primary materiel
management systems, the Standard Automated Materiel Management System,
and the Defense Integrated Subsistence Management System, with expanded
enterprise computing environment and commercial-off-the-shelf software
packages.

The Standard Automated Materiel Management System is the first system slated
to be replaced, to occur in the FY 2001 through FY 2003 timeframe, with the
business-process improvement that will continue over the course of several
years. After the Standard Automated Materiel Management System and the
Defense Integrated Subsistence Management System are replaced, other Defense
Logistics Agency legacy systems are expected to follow. Over the course of
several years, the Business System Modernization strategy will result in new
agency-wide processes that reflect best commercial business practices.
Adopting new practices will contribute to improved military readiness by
implementing a more interoperable and shared data environment. DFAS

                                    28
    entered into active participation on Integrated Product Teams in early 2000 and
    is currently participating in evaluations of vendor proposals, with an award
    expected in the third quarter of 2000.

    Other Systems. Migratory systems for the Trust Fund (TRFND) and the
    Nonappropriated Funds (NAF) have not been defined.

DCII Disbursing
    Defense Standard Disbursing System (DSDS). The Defense Standard
    Disbursing System is to be the single, standard DFAS migratory automated
    information system for disbursing, collecting, processing, and recording
    disbursement data and transactions. It will interact with existing entitlement,
    accounting, and U.S. Treasury reporting systems to provide disbursing
    capability.

    Defense Debt Management System (DDMS). The Defense Debt Management
    System is a migratory DFAS automated financial management system developed
    to pursue debt collection efforts and recoup monies owed to government by both
    individuals who are out of service and delinquent contractors. The Defense
    Debt Management System provides online processing of debt cases using
    automated files. The system is complemented by the use of centralized
    interfaces between the various pay systems, where the majority of debts
    originate. The Defense Debt Management System also provides centralized
    automated processing of payments by debtors.

DCII Information Retrieval and Reporting
    Defense Departmental Reporting System (DDRS). The Defense
    Departmental Reporting System is a DFAS migratory system currently under
    development that will satisfy the need for a financial management system to
    support the DoD appropriation level control, financial reporting, and financial
    analysis.




                                        29
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communication, and Intelligence)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          30
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       31
Office of the Under Secretary of Defense
(Comptroller/Chief Financial Officer) Comments




                      32
33
34
Assistant Secretary of Defense for Command,
Control, Communications, and Intelligence
Comments




                      35
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, produced this report.

F. Jay Lane
Salvatore D. Guli
Kimberley Caprio
Eric Lewis
Melissa McBride
Cynthia Keller
Sharon Carvalho
